Nicholas J. Bronni
Solicitor General

Direct Dial: (501) 682-6302
nicholas.bronni@arkansasag.gov

April 6, 2021
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Thomas v. Payne, No. 20-7480 ***CAPITAL CASE***

Dear Mr. Harris:
I write on behalf of Respondent Dexter Payne to request a 60-day extension of the
deadline for filing a brief in opposition to the petition for a writ of certiorari in this matter. The
response is currently due April 16, 2021. With this requested extension, the response would be
due on June 15, 2021. Petitioner Mickey Thomas does not oppose this request.
A 60-day extension is reasonable and necessary because of other professional obligations
and the need to become familiar with this mater. This matter was recently reassigned to the
Solicitor General Unit of the Arkansas Attorney General’s Office. Our unit did not handle this
matter below and will require additional time to become familiar with the voluminous record in
this case. Additionally, between docketing and the original due date in this matter, our unit has
been responsible for drafting a petition for en banc review and a merits brief in the court of
appeals. Our unit is also responsible for supervising a number of matters pending in lower
federal and state courts, including multiple upcoming oral arguments.
Sincerely,
/s/ Nicholas J. Bronni
Nicholas J. Bronni

cc: John Williams, john_c_williams@fd.org, Counsel for Petitioner

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

